                           U.S. SMALL BUSINESS ADMINISTRATION
                              OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20416


                                                                AUDIT REPORT
                                                           Issue Date: July 11, 2000
                                                           Report Number: 0-20

TO:           Joseph P. Loddo
              Chief Financial Officer


FROM:         Robert G. Seabrooks
              Assistant Inspector General for Auditing

SUBJECT:      Review of SBA’s Financial Reporting Process

        Attached is a copy of the report on SBA’s Financial Reporting System issued by Cotton
& Co., LLP. The report describes the systems and processes SBA uses to prepare its annual
financial statements. The review was performed pursuant to the Conference Report on H.R.
3194, Consolidated Appropriations Act, 2000. The report includes two recommendations related
to (1) preparing quarterly financial statements and (2) implementing an integrated standard
general ledger. Your response to the draft report stated that it is a fair assessment of SBA’s
financial reporting over the last two years and describes the actions your office is taking to
improve this process. A copy of your response is included as Attachment 2.

       The findings included in this report are the conclusions of the Office of Inspector
General's Auditing Division. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing
Agency procedures for audit follow-up and resolution. Please provide your proposed
management decisions for the recommendations on the attached SBA Forms 1824,
Recommendation Action Sheet, within 30 days. If you disagree with a recommendation, please
provide your reasons in writing.

       This report may contain proprietary information subject to the provisions of 18 USC
1905. Do not release to the public or another agency without permission of the Office of
Inspector General. Should you or your staff have any questions, please contact Robert Hultberg,
Director, Business Development Programs Group at (202) 205-7204.

Attachment
                         INDEPENDENT ACCOUNTANT’S

                   REPORT ON THE PERFORMANCE AUDIT OF

                      SBA FINANCIAL REPORTING SYSTEM




Performed by:

Cotton & Company LLP
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314
ATTACHMENT 1
     Page 1 of 4
ATTACHMENT 1
     Page 1 of 4
ATTACHMENT 1
     Page 1 of 4
ATTACHMENT 1
     Page 1 of 4
                              ATTACHMENT 1
                                   Page 1 of 4




FINANCIAL REPORTING PROCESS
                                                                                        ATTACHMENT 1
                                                                                             Page 1 of 4

                U.S. SMALL BUSINESS ADMINISTRATION, FISCAL YEAR 1999


        The U.S. Small Business Administration’s (SBA’s) financial reporting process is composed of the
following four major components:

        •       Federal Financial System
        •       Loan Accounting System
        •       Budgetary Accounting
        •       Consolidation

FEDERAL FINANCIAL SYSTEM

       Accounting for SBA’s Salaries and Expenses Fund (S&E), Office of Inspector General
Fund (OIG) and Business Assistance Trust Fund (BATF) is performed using the Federal
Financial System (FFS), an automated accounting system owned and operated by the Department
of Treasury’s Financial Management Services (FMS). Through a memorandum of understanding
with FMS, SBA administrative personnel at the Central Office and field offices use FFS to
process travel, imprest fund and vendor payment transactions, and maintain accounting records.
The Denver Finance Center (DFC) uses FFS for the same purposes plus payroll. FFS has a
general ledger subsystem that provides an audit trail of transactions and data needed for
generating accounting reports.

         Transactions are recorded in FFS using transaction codes and transaction types. FFS is
programmed to debit and credit appropriate accounts based upon transaction code and type. Additionally,
year-end accruals, error corrections, and other adjustments are entered in FFS through the use of journal
vouchers. FFS generates trial balances by fund and budget fiscal year. SBA does not, however, have
access to an FFS reporting module, but instead orders individual reports from FMS and pays for each
report ordered. SBA orders a detailed report every month in a text file and re-keys the data onto an Excel
spreadsheet. Thus, it obtains financial summary information from Excel spreadsheets rather than directly
from FFS.

        The Surety Bond Program, used for recording activities under the Surety Bond Guarantees
Revolving Fund (SBG), is also interfaced with FFS. After FFS has been updated with SBG data, trial
balances are prepared in the same manner as described above.

       For FY 1999, SBA obtained both pre- and post-closing trial balances from FFS. The trial
balances were prepared by fund and by budget fiscal year. Thus, specific summary account
balances by fund were not readily available, and SBA re-keyed the over-200-page trial balance
onto an Excel spreadsheet and sorted the data by fund and general ledger account. Once sorted,
SBA could obtain account balances; prepare trial balances for S&E, OIG, BATF, and SBG; and
then prepare financial statements for these funds.

LOAN ACCOUNTING SYSTEM

         Accounting for SBA’s Business Loan (BL) and Disaster Loan (DL) Programs is conducted
through the Loan Accounting System (LAS) – the online general ledger, and an array of Excel
spreadsheets – the off-line general ledger. LAS is primarily used to the track history and balances of
specific loans, and the Excel spreadsheets are used to record transactions that do not impact a specific loan.
                                                                                              ATTACHMENT 1
                                                                                                   Page 2 of 4

          SBA personnel at the Central Office and at field offices enter transactions into LAS through transaction
codes. The transaction codes adjust general ledger account balances at a loan-level basis. LAS is programmed to
debit or credit specific accounts depending on the transaction code. Additionally, DFC personnel are able to adjust
LAS balances through the use of journal vouchers. LAS generates trial balances by fund, the MARS 317 report.

         Certain transactions are not, however, identifiable by loan number and are recorded off-line on Excel
spreadsheets. These include year-end and month-end accruals of interest receivable, which is the interest from the
most recent posting date to the cut-off reporting period; borrowings from Treasury in the financing funds; and
appropriations received. These off-line general ledgers are maintained by fund for the eight funds: three each for
financing funds and liquidating funds, and two for program funds,

          Because accounting for the loans approved after FY 1991 must be in accordance with the Federal Credit
Reform Act (FCRA), fund balances and transactions must be maintained at the cohort level (year of loan approval)
for the financing funds and program funds. As a result, these funds must be accounted for by fiscal year of loan
approval, going back to October 1st 1991. To comply with this requirement, SBA maintained its off-line general
ledgers in FY 1999 on 68 separate Excel files. The number of files increases each year as new cohorts and annual
funds are added.

         Recording transactions onto Excel spreadsheets is done exclusively through the use of journal vouchers.
FY 1999 accounting required the use of more than 3,000 journal entries to maintain the off-line general ledgers.
Each of the 68 Excel files contains 14 spreadsheets, one for each of the 12 months in the year, one for making
closing journal entries, and one for presenting the final trial balance.

          The final trial balance sheet has rows that list all SBA general ledger accounts. Its 25 columns show
transactions in the 12 months and the accumulated balance after each month’s transaction. This final trial balance is
linked with the 12 monthly sheets and the closing journal entry sheet and is thus automatically updated when journal
vouchers are entered on the other spreadsheets. The 12 monthly spreadsheets are divided into 5 sections
representing the 1000 to 5000 account series. Each journal entry made to an account is listed under the account as a
debit or credit, and the journal voucher number is listed as reference.

         One full-time staff member managed the off-line journal voucher system in FY 1999. Fund accountants
prepared the journal vouchers and gave hardcopies to the staff member responsible for entering them onto the 68
Excel files.

          After both the online trial balance (MARS 317) and off-line trial balance are complete, data are re-keyed
onto another Excel spreadsheet that produces the combined trial balance. Account balances are entered onto an
Excel spreadsheet by fund; each fund is linked to a summary spreadsheet, thus allowing for a combined trial balance
for both the BL and DL Programs.

BUDGETARY ACCOUNTING

         SBA uses two systems to track budgetary activities. It uses FFS to account for budgetary transactions
within S&E, OIG, BATF, and SBG. SBA’s Budget Office uses the Loan Accounting Allotment (LAA) system to
monitor the budget for loan approvals. LAA is not, however, interfaced with LAS, which is used to account for
SBA’s BL and DL Programs. In this section, we describe SBA’s budgetary accounting system for transactions
associated with LAS.

         To prepare off-line budgetary general ledgers, the Office of Chief Information Officer (OCIO) prepares a
general ledger report, which is by transaction code and date from LAS; the Office of the Chief Financial Officer
(OCFO) downloads the detailed general ledger report into an Access database. DFC
                                                                                       ATTACHMENT 1
                                                                                            Page 3 of 4

personnel then query reports by fund in Access. Budgetary account balances were computed based on a
combination of transaction codes and General Ledger accounts.

        The off-line general ledger system includes one Excel spreadsheet for each fund, cohort year (the
loan-approval year), and one for each funding year (the year the appropriation was received). The BL
Program (Fund 1154) and the DL Program (Fund 1152) receive annual and multi-year appropriations from
Treasury. Thus, budgetary information for these funds is maintained by budget fiscal year, which is from
FY 1992 (the first year of Credit Reform) to the current year. In addition, spreadsheets are maintained for
each cohort year, also from FY 1992 to the current year. In total, 16 spreadsheets are kept for each of the
two program funds; the number of files will increase each year as new cohorts and annual funds are added.

        SBA also has three “financing funds:”

        •       Business Direct Loans (Fund 4148)
        •       Business Guaranteed Loans (Fund 4149)
        •       Disaster Direct Loans (Fund 4150)

        Budgetary information for these financing funds must be maintained by cohort year. Thus, each of
the eight business direct and guaranteed loan cohorts are maintained on separate spreadsheets; the DL
Program is maintained on one spreadsheet with columns for each cohort year. In total, 17 spreadsheets are
maintained for these financing funds. The number of these files will increase each year as new cohorts and
annual funds are added.

        SBA also has two “liquidating funds:”

        •       Disaster Loan Liquidating (Fund 4153)
        •       Business Loan Liquidating (Fund 4154)

       These funds are pre-Credit Reform funds and, as such, do not require maintenance by cohort year.
These two funds are maintained on separate spreadsheets.

        In total, SBA updates and maintains over 50 spreadsheets for performing budgetary accounting of
its BL and DL Programs. Each spreadsheet has more than 2,000 rows and 80 columns.

CONSOLIDATION

         Consolidation is the final stage in the preparation of the financial statements. Account balances
from each fund are re-keyed into the (1) pre-closing trial balance for proprietary accounts, (2) post-closing
trial balance for proprietary accounts, and (3) combined pre- and post-closing trial balance for budgetary
accounts. FFS and LAS do not use the same chart of accounts; thus, SBA prepares a crosswalk to properly
classify accounts. Each of the three trial balances contains 13 spreadsheets: one for each of SBA’s 12
funds and one summary spreadsheet. They have the following characteristics:

        •       Each spreadsheet contains balances for more than 200 accounts, however, on some
                spreadsheets less than 50 accounts contain a balance.

        •       Each account has six columns:

                •   On-line balance
                •   Off-line balance
                •   Adjustments
                •   Combined pre-audited trial balance (summarizing columns 1-3)
                •   Audit adjustment column
                •   Post-audited trial balance (summarizing columns 4-5)

        When the consolidated trial balances are complete, SBA prepares its financial statements and footnotes following
the guidance of Office of Management and Budget (OMB) Bulletin 97-01 SBA prepares the combined financial statements
on five Excel spreadsheets, one for each of the following financial statements:

        •       Balance Sheet
        •       Consolidated Statement of Changes in Net Position
        •       Combined Statement of Budgetary Resources
        •       Combined Statement of Financing
        •       Combined Statement of Net Cost

        With the exception of the Combined Statement of Net Cost, prepared only at the agency level, these statements are
required for each of the following seven programs:

        •       Business Loan and Investment (Funds 1154, 4148, 4149, and 4154)
        •       Disaster Loan (Funds 1152, 4153, 4150)
        •       Surety Bond Guarantees (Fund 4156)
        •       Salaries and Expenses (Fund 0100).
        •       Business Assistance Trust Fund (Fund 8477)
        •       Pollution Control Equipment Fund Liquidating Account (Fund 4147)
        •       Office of Inspector General (Fund 0200)

        The consolidated statements are linked to other Excel spreadsheets, which are statements presented by program as
discussed above. These spreadsheets have the following characteristics:

        •       Each spreadsheet is a financial statement with seven columns representing the seven programs.

        •       The financial statements for each program are prepared from the trial balance by following the SGL
                crosswalks to standard external reports, published by Financial Management Service.

        •       Line item amounts for the financial statements are obtained by matching or crosswalking to the proper
                general ledger account on the trial balances. For example, according to the SGL crosswalk, the loans
                receivable line item on the balance sheet statement is a summary of eight SGL account balances. Because
                LAS does not, however, follow SGL, 32 SBA general ledger accounts “crosswalk” to the 8 SGL accounts.
                 SBA has three loan programs (Disaster Direct, Business Direct, and Business Guarantee) accounted for by
                seven funds. The 32 general ledger accounts must be manually added seven times to get the loans
                receivable balance for each fund. The fund balance is then summarized by program, and the program
                balances are combined to determine the final loans receivable balance for the entire agency.

        Finally, each set of financial statements is combined to produce the consolidated financial statements.
                                        REPORT DISTRIBUTION

Recipient                                                     Copies

Administrator                                                  1

Deputy Administrator                                           1

Associate Deputy Administrator for
 Management & Administration                                   1

Associate Administrator for Field Operations                   1

Assistant Administrator
 Office of Congressional & Legislative Affairs                 1

Associate Administrator                                        1
 Office of Financial Assistance

Chief Information Officer                                      1

General Counsel                                                2

General Accounting Office                                      2
                                      REPORT DISTRIBUTION

Recipient                                                   Copies

Administrator                                                1

Deputy Administrator                                         1

Associate Deputy Administrator for
 Management & Administration                                 1

Associate Administrator for Field Operations                 1

Assistant Administrator
 Office of Congressional & Legislative Affairs               1

Associate Administrator                                      1
 Office of Financial Assistance

Chief Information Officer                                    1

General Counsel                                              2

General Accounting Office                                    2
